 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




  U.S. DEPARTMENT OF HEALTH
      AND HUMAN SERVICES
 MET MANY REQUIREMENTS OF THE
IMPROPER PAYMENTS INFORMATION
 ACT OF 2002 BUT WAS NOT FULLY
           COMPLIANT

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                   Daniel R. Levinson
                                                    Inspector General

                                                       March 2013
                                                      A-17-13-52000
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 The Department met many requirements of the Improper Payments Information Act but
 did not fully comply with requirements established under the Act and OMB guidance.

WHY WE DID THIS REVIEW

The Improper Payments Elimination and Recovery Act of 2010 (IPERA), P.L. No. 111-204,
requires Offices of Inspector General (OIG) to review and report on agencies’ annual improper
payment information included in their Agency Financial Reports (AFR) to determine compliance
with the Improper Payments Information Act of 2002 (P.L. No. 107-300) as amended by the
IPERA. (The “IPIA” will refer to this law as amended by the IPERA.) The objectives of this
review were to (1) determine whether the Department of Health and Human Services
(Department) complied with the IPIA for fiscal year (FY) 2012 in accordance with related Office
of Management and Budget (OMB) guidance, (2) evaluate the accuracy and completeness of the
Department’s reporting, and (3) evaluate the Department’s performance in reducing and
recapturing improper payments.

BACKGROUND

To improve accountability of Federal agencies’ administration of funds, the IPIA requires
agencies, including the Department, to annually report to the President and Congress on the
agencies’ improper payments. An improper payment is any payment that should not have been
made or that was made in an incorrect amount (either overpayments or underpayments).

As required by OMB, agencies must comply in seven key areas, which are (1) publishing an
AFR and posting it on the agency Web site, (2) conducting a program-specific risk assessment,
(3) developing improper payment estimates for programs and activities identified as risk
susceptible, (4) publishing corrective action plans, (5) establishing annual reduction targets for
those risk-susceptible programs, (6) reporting gross improper payment rates of less than
10 percent, and (7) reporting on its efforts to recapture improper payments. In addition to
assessing compliance with the IPIA, OMB Circular A-123 states that the OIG should evaluate
the accuracy and completeness of agency reporting, as well as its performance in reducing and
recapturing improper payments.

WHAT WE FOUND

Although the Department met many of the IPIA requirements, it did not fully comply with the
IPIA and OMB guidance. As required, the Department published an AFR for 2012 and posted
that report and accompanying material required by OMB on its Web site. It also conducted a
program-specific risk assessment of 33 programs that were not deemed high risk by OMB to
identify those programs or activities that might have been susceptible to significant improper
payments.

As required by the IPIA, the Department reported improper payment information for nine
programs that were deemed to be high risk by OMB. However, it did not report an improper
payment estimate for one of the nine programs, the Temporary Assistance for Needy Families
program (TANF). The Department published corrective action plans for seven of nine programs.

Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                     i
The Children’s Health Insurance Program (CHIP) did not publish corrective action plans as
required, and this requirement did not apply to TANF because an estimate was not provided. The
Department reported that four of nine programs met their improper payment rate reduction
targets. However, three of nine (i.e., Medicare Fee-for-Service, Medicare Advantage, and Foster
Care) did not meet their improper payment rate reduction targets for FY 2012; this requirement
did not apply for the remaining two programs because a target had not been established for either
program. The Department reported that seven of nine programs had an improper payment rate
below 10 percent. Medicare Advantage reported an improper payment rate of 11.4 percent for
FY 2012, and this requirement did not apply for TANF because it did not provide a prior-year
improper payment estimate. We found that the Department reported information on its efforts to
recapture improper payments in accordance with OMB guidance.

In addition to assessing the Department’s compliance with the IPIA, we evaluated the accuracy
and completeness of the Department’s reporting and did not identify any inaccuracies or gaps in
the information reported for three programs (i.e., Medicaid, Head Start, and Foster Care). For
four programs (i.e., Child Care Development Funds, Medicare Fee-for-Service, Medicare
Advantage, and Medicare Prescription Drugs), we identified inaccuracies, and for two programs
(i.e., CHIP and TANF), we identified incomplete information.

We also evaluated the Department’s performance in reducing and recapturing improper
payments and identified that the Department has achieved some success in reducing improper
payment rates. We noted that the Department reported reductions in rates for five programs for
which it reported improper payment rates. However, the Department reported increases in the
Medicare Advantage and Foster Care programs’ improper payment rates.

WHAT WE RECOMMEND

To address issues identified in this report, we recommend that the Department improve its
compliance with the IPIA. Specifically, the Department should assess the need for additional
actions to meet improper payment rate reduction targets, develop and report improper payment
rate reduction targets and corrective action plans for CHIP, ensure that amounts used in the
computations for reporting overpayments recaptured are accurate and complete, and ensure data
are retained in accordance with program requirements.

DEPARTMENT’S COMMENTS AND OUR RESPONSE

In its comments on the draft report, the Department neither agreed nor disagreed with our four
recommendations. Instead, the Department described actions it has implemented or plans to
implement related to the recommendations and expressed concerns primarily about the
recommendation for CHIP.

We acknowledge that the Department has taken or plans to take actions to address our
recommendations. With regard to our recommendations for CHIP, taking actions to comply with
the IPIA will focus the Department’s efforts to minimize improper payments.




Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                 ii
                                                    TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION........................................................................................................................... 1

           Why We Did This Review .................................................................................................. 1

           Objectives............................................................................................................................. 1

           Background ......................................................................................................................... 1

           Compliance With the Improper Payments Information Act of 2002
            and Office of Management and Budget Guidance ........................................................ 1

           Key Issues Identified in Our Prior-Year Report ............................................................. 2

           How We Conducted This Review ...................................................................................... 2

FINDINGS ....................................................................................................................................... 3

           Department Compliance With the Improper Payments Information Act of 2002 ....... 4
                 Department Complied With Requirement To Publish and Post
                   the Agency Financial Report ................................................................................. 4
                 Department Complied With Requirement To Perform Risk Assessments
                   of Department Programs ........................................................................................ 4
                 Department Fully Complied With the Improper Payments Information
                   Act of 2002 Requirements for Four High-Risk Programs ..................................... 5
                 Improper Payment Estimate Not Reported for One Program,
                   Temporary Assistance for Needy Families ............................................................ 5
                 Corrective Action Plan Published for Seven of Nine Programs ............................... 5
                 Improper Payment Rate Reduction Targets Met for Four of Nine Programs .......... 5
                 Gross Improper Payment Rate for Seven of Nine Programs Was
                   Less Than 10 Percent ............................................................................................. 7
                 Information on Recapturing Improper Payments .................................................... 8
                 Noncompliance for Fiscal Years 2011 and 2012 ...................................................... 8

           Accuracy and Completeness of Information in the Agency Financial Report .............. 8

           Performance in Reducing Improper Payments ............................................................. 10

RECOMMENDATIONS.............................................................................................................. 10

DEPARTMENT COMMENTS ................................................................................................... 10

OFFICE OF INSPECTOR GENERAL RESPONSE................................................................ 11


Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                                                               iii
APPENDIXES

        A: Related Office of Inspector General Reports ........................................................... 13

        B: Department of Health and Human Services Comments ......................................... 14




Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                                  iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Improper Payments Elimination and Recovery Act of 2010 (IPERA), P.L. No. 111-204,
requires Offices of Inspector General (OIG) to review agencies’ annual improper payment
information included in their Agency Financial Reports (AFR) to determine and report
compliance with the Improper Payments Information Act of 2002 (P.L. No. 107-300) as
amended by the IPERA. 1

OBJECTIVES

Our objectives were to (1) determine whether the Department of Health and Human Services
(Department) complied with the IPIA for fiscal year (FY) 2012 in accordance with related Office
of Management and Budget (OMB) guidance, (2) evaluate the accuracy and completeness of the
Department’s reporting, and (3) evaluate the Department’s performance in reducing and
recapturing improper payments.

BACKGROUND

In its FY 2012 AFR, the Department reported $64.8 billion in improper payments. An improper
payment is any payment that should not have been made or that was made in an incorrect amount
(either overpayments or underpayments). To improve accountability of Federal agencies’
administration of funds, the IPIA requires agencies, including the Department, to annually report
information to the President and Congress on the agencies’ improper payments. OMB Circular
A-123, Appendix C, parts I and II, and OMB Circular A-136, part II, section 5.8, provide
guidance on the implementation of the IPIA and the IPERA.

COMPLIANCE WITH THE IMPROPER PAYMENTS INFORMATION ACT OF 2002
AND OFFICE OF MANAGEMENT AND BUDGET GUIDANCE

To determine compliance with the IPIA and OMB guidance, an OIG should review the AFR of
the most recent FY to determine whether the agency is compliant in seven key areas:

      •    publishing an AFR for the most recent FY and posting that report and any accompanying
           material required by OMB on its Web site,

      •    conducting a program-specific risk assessment, if required, for each program or activity
           to identify those programs or activities that may be susceptible to significant improper
           payments,

      •    publishing improper payment estimates for all programs and activities identified in its
           risk assessment as susceptible to significant improper payments,


1
    In this report, “the IPIA” will mean the IPIA as amended by the IPERA.


Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                      1
      •   publishing programmatic corrective action plans in the AFR,

      •   publishing and meeting annual improper payment reduction targets for each program
          assessed to be at risk and measured for improper payments,

      •   reporting a gross improper payment rate of less than 10 percent for each program or
          activity for which an improper payment estimate was obtained and published in the AFR,
          and

      •   reporting information on its efforts to recapture improper payments (OMB Circular
          A-123, Appendix C, part II, section A(4)).

In addition to assessing compliance in the seven key areas in the IPIA, OMB guidance states that
the OIG should also evaluate the accuracy and completeness of agency reporting and evaluate
agency performance in reducing and recapturing improper payments (OMB Circular
A-123). 2

KEY ISSUES IDENTIFIED IN OUR PRIOR-YEAR REPORT

In March 2012, we issued a report on the Department’s compliance with the IPIA for FY 2011.
In that report, we determined that the Department did not fully comply with the IPIA.
Specifically:

      •   neither the Temporary Assistance for Needy Families program (TANF) nor the
          Children’s Health Insurance Program (CHIP) reported an improper payment rate,

      •   both the Medicare Advantage and the Child Care Development Funds (CCDF) programs
          reported improper payment rates that exceeded 10 percent, and

      •   the Department’s reporting on recapturing improper payments was not adequately
          supported.

We recommended that the Department address these issues. See Appendix A for a list of Office
of Inspector General reports related to this topic.

HOW WE CONDUCTED THIS REVIEW

Our review covered IPIA information in “Other Accompanying Information” that was reported
in the Department’s FY 2012 AFR. 3 The Department included information on the following
nine programs, which were deemed by OMB to be susceptible to significant improper payments:


2
  An estimate of improper payments is not an estimate of fraud. Because the improper payment estimation process
is not designed to detect or measure the amount of fraud in programs such as Medicare, there may be fraud in a
program that is not included in the reported improper payment estimate.
3
    The Department issued its FY 2012 AFR on November 15, 2012.

Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                                  2
Medicare Fee-for-Service, Medicare Advantage, Medicare Prescription Drugs, Medicaid, CHIP,
TANF, Foster Care, Head Start, and CCDF.

To determine whether the Department complied with the IPIA and whether it had made progress
on recommendations included in our report on the Department’s FY 2011 AFR, we:

    •   reviewed applicable Federal laws and OMB circulars,

    •   reviewed improper payment information reported in the AFR,

    •   obtained and analyzed information from the Department on the nine programs deemed
        susceptible to significant improper payments, and

    •   interviewed Department staff to obtain an understanding of the processes and events
        related to determining improper payment rates.

To evaluate the accuracy and completeness of the Department’s reporting, we reviewed the
documentation and related information provided by the Department to support the balances,
amounts, percentages, and ratios reported in the AFR.

To evaluate the Department’s performance in reducing improper payments, we reviewed
documentation provided by the Department on its corrective actions to reduce improper
payments and analyzed the reported improper payment rates.

We discussed the results of our work with the Department.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

We performed our fieldwork from November 2012 through January 2013.

                                              FINDINGS

Although the Department met many of the IPIA requirements, it did not fully comply with the
IPIA and OMB guidance. As required, the Department published an AFR for 2012 and posted
that report and accompanying material required by OMB on its Web site. The Department
conducted a program-specific risk assessment of 33 programs that were not deemed high risk by
OMB to identify those programs or activities that might have been susceptible to significant
improper payments. The Department published an improper payment estimate for eight of nine
programs; it did not report an improper payment estimate for TANF. The Department published
corrective action plans for seven of nine programs. The Department did not publish a corrective
action plan for CHIP as required; for TANF, this requirement did not apply because an improper
payment estimate was not developed. The Department reported that four of nine programs met

Department Reporting Under the Improper Payments Information Act (A-17-13-52000)               3
their improper payment rate reduction targets. However, three of nine (i.e, Medicare Fee-for-
Service, Medicare Advantage, and Foster Care) did not meet their improper payment rate
reduction targets for FY 2012; this requirement was not applied for the remaining two programs
because prior-year improper payment rates were not estimated. The Department reported that
seven of nine programs had an improper payment rate below 10 percent. For the Medicare
Advantage program, the Department reported an improper payment rate of 11.4 percent for FY
2012, and this requirement was not applied for TANF because a prior-year improper payment
rate was not estimated. We found that the Department reported information in accordance with
OMB guidance on its efforts to recapture improper payments.

In addition to assessing the Department’s compliance with the IPIA, we assessed the accuracy
and completeness of the Department’s reporting and did not identify any inaccuracies or gaps in
the information reported for three programs (i.e., Medicaid, Head Start, and Foster Care). For
four programs (i.e., CCDF, Medicare Fee-for-Service, Medicare Advantage, and Medicare
Prescription Drugs), we identified inaccuracies, and for two programs (i.e., CHIP and TANF),
we identified incomplete information.

We also assessed the Department’s performance in reducing and recapturing improper payments
and identified that the Department has achieved some success in reducing improper payment rates.
We noted that the Department reported reductions in rates for five programs for which it reported
improper payment rates. However, the Department reported increases in the Medicare
Advantage and Foster Care programs’ improper payment rates. We also noted some differences
in the amounts reported for the recapture of improper payments for Medicare Fee-for-Service
and Medicare Advantage.

DEPARTMENT COMPLIANCE WITH THE IMPROPER PAYMENTS
INFORMATION ACT OF 2002

Department Complied With Requirement To Publish and Post
the Agency Financial Report

To satisfy the IPIA, the Department published an AFR for FY 2012 dated November 15, 2012,
and posted that report and accompanying material on its Web site as required by OMB. The
AFR included management’s discussion of Department programs, its audited financial
statements, and other accompanying information.

Department Complied With Requirement To Perform Risk Assessments
of Department Programs

The Department conducted a program-specific risk assessment of 33 programs that were not
deemed high risk by OMB to identify those programs or activities that might have been
susceptible to significant improper payments. Previously, nine of the Department’s programs
were deemed by OMB to be highly susceptible to improper payments.




Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                 4
Department Fully Complied with the Improper Payments Information Act of 2002
Requirements for Four High-Risk Programs

The Department substantially met all of the IPIA’s requirements for the following four programs:
Medicare Prescription Drugs, Medicaid, Head Start, and CCDF. For example, the Department
published required Medicare Prescription Drugs information in the AFR, including a gross
improper payment rate of 3.1 percent that was less than the target improper payment rate of 3.2
percent. In addition, the Department-published CCDF improper payment estimate was less than
10 percent and met all other IPIA requirements. The Department did not satisfy one or more
requirements for the remaining five high-risk programs: Medicare Fee-for-Service, Medicare
Advantage, CHIP, TANF, and Foster Care.

Improper Payment Estimate Not Reported for One Program, Temporary Assistance for
Needy Families

In our FY 2011 report, we recommended that the Department take steps to develop improper
payment estimates for CHIP and TANF. In its 2012 AFR, the Department reported an improper
payment rate for CHIP but not for TANF. The Department did not meet other IPIA requirements
for TANF because the Department did not provide an estimate of the extent of improper
payments. The Department stated in its AFR that it did not report an improper payment estimate
for TANF because it is a State-administered program and statutory limitations prohibit the
Department from requiring States to participate in a TANF improper payment measurement.

The IPIA requires Federal agencies to review all of their programs to identify those that may be
susceptible to significant improper payments. OMB has designated TANF as a Federal program
with a significant risk of improper payments. Accordingly, TANF is required to estimate
improper payments. The Department stated in the AFR that despite statutory limitations, it
continues to explore options that will allow for a future improper payment rate measurement.

Corrective Action Plan Published for Seven of Nine Programs

As required by the IPIA, the Department did publish corrective action plans for seven of nine
programs. As previously noted, the Department did not publish a corrective action plan for
TANF because estimates of the extent of improper payments were not made. For CHIP, the
Department did not publish a corrective action plan as required and reported that it is actively
working with States to develop corrective action plans for CHIP. It expects these corrective
action plans to include areas such as data and program analysis, implementation and monitoring,
and evaluation.

Improper Payment Rate Reduction Targets Met for Four of Nine Programs

The Department had four programs that met their improper payment rate reduction targets. For
example, the Department reported an improper payment rate reduction target of 7.4 percent for
Medicaid in the FY 2011 AFR. As reported in the FY 2012 AFR, Medicaid achieved an
improper payment rate of 7.1 percent, which exceeded its goal. However, three of the nine
programs did not meet their improper payment rate reduction targets for FY 2012: Medicare


Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                   5
Fee-for-Service, Medicare Advantage, and Foster Care (Table 1). 4 For Medicare Fee-for-
Service, the Department’s reported improper payment rate (8.5 percent) exceeded its target rate
(5.4 percent). The Department made two adjustments to its methodology that lowered the
Medicare Fee-for-Service improper payment estimate: (1) it moved the reporting period back by
6 months to account for the effect of appeals and late documentation and (2) it used an
adjustment factor 5 for inpatient claims when the services should have been provided to the
beneficiary as an outpatient. The Department has reported a number of ongoing corrective
actions, including those implemented in FY 2012. According to Department officials, the
Department is optimistic that these efforts will lower the improper payment rate and help it meet
its targets in future reporting years. The Department revised its Medicare Fee-for-Service
improper payment rate reduction targets to 8.3 percent for 2013 and to 8.0 percent for 2014, and
it established a target rate of 7.5 percent for 2015.

                                  Table 1: Assessment of Achieving
                      Fiscal Year 2012 Improper Payment (Percentage) Targets


                                                  Improper Payment Estimate (Percentage)
                                           FY 2012     FY 2012
                Program                     Target      Actual            Target Met
        Medicare Fee-for-Service              5.4         8.5                 No
        Medicare Advantage 6                 10.4        11.4                 No
        Medicare Prescription
        Drugs                                  3.2           3.1                         Yes
        Medicaid                               7.4           7.1                         Yes
        CHIP                                  N/A            8.2                         N/A
        TANF                                  N/A            N/A                         N/A
        Head Start                             0.6           0.6                         Yes
        Foster Care                            4.5           6.2                         No
        CCDF                                  10.8           9.4                         Yes
       Source: the Department, FY 2012 AFR.
       N/A = Not applicable because these programs did not submit improper payment estimates in FY 2011.
       Therefore, 2012 targets could not be estimated.

For Medicare Advantage, the Department’s reported improper payment rate (11.4 percent)
exceeded its target rate (10.4 percent). In addition, the Medicare Advantage improper payment
rate increased from 11.0 percent in the FY 2011 AFR to 11.4 percent in the FY 2012 AFR.
According to the Department, the majority of the errors related to insufficient documentation to

4
 For TANF and CHIP, the Department did not have a target improper payment rate to meet for FY 2012 because it
did not report an improper payment estimate for either program in the FY 2011 AFR.
5
 The adjustment factor was meant to ensure that the improper payment estimate for this subset of claims was
consistent with Administrative Law Judge and Departmental Appeals Board decisions.
6
    Medicare Advantage is identified as “Medicare Managed Care” in the AFR.


Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                                6
support the diagnoses submitted by managed care plans. 7 The Department has revised its
Medicare Advantage improper payment rate reduction targets to 10.9 percent for 2013 and to
10.4 percent for 2014, and it has established a target rate of 9.9 percent for 2015.

For Foster Care, the Department’s reported improper payment rate (6.2 percent) exceeded its
target rate (4.5 percent). The Department attributed the increases in the Foster Care program
improper payment rate to a high improper payment rate in one large State included in its review
for FY 2012. 8 The Department reported that if the data from that State were excluded, the
overall improper payment rate for Foster Care would have decreased in FY 2012. The
Department has revised its Foster Care improper payment rate reduction targets to 6.0 percent for
2013 and 5.8 percent for 2014 and has established a target rate of 5.5 percent for 2015.

Meeting the improper payment rate reduction target was not applied for either TANF or CHIP
because the Department had not reported an improper payment rate for either in the prior year.
With regard to publishing a target for measured programs, CHIP had not set an improper
payment rate reduction target for FY 2013. In FY 2014, the Department expects to publish an
improper payment rate reduction target in its AFR after all 50 States and the District of Columbia
have been measured once.

Gross Improper Payment Rate for Seven of Nine Programs Was Less Than 10 Percent

The Department reported that 7 of 9 programs achieved an improper payment rate of less than
10 percent. In our prior-year report, we recommended the Department take steps to reduce the
improper payment rate for both Medicare Advantage and CCDF to below 10 percent. For
FY 2012, the Department reported a gross improper payment rate of 9.4 percent for CCDF. 9
However, Medicare Advantage did not meet the requirement of reporting an improper payment
rate of less than 10 percent (Table 2). The Department reported that Medicare Advantage’s gross
improper payment rate was 11.4 percent. The Department reported that the rate increased from
11.0 percent in FY 2011 to 11.4 percent in FY 2012. The Department did not attribute the
increase to any specific cause. Because the Department had not measured improper payments
for TANF, it could not report an improper payment rate of less than 10 percent for the program.




7
 Medicare Advantage plans submit diagnoses that the Centers for Medicare & Medicaid Services (CMS) uses to
establish reimbursement rates on the basis of beneficiary risk.
8
    To measure improper payments in Foster Care, the Department reviews eligibility in each State every 3 years.
9
    The adjusted rate was 9.16 percent, and we discuss this issue later in the report.

Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                                   7
                      Table 2: Assessment of Achieving Fiscal Year 2012
                     Gross Improper Payment Rate of Less Than 10 percent

                                         Improper Payment
                                             Estimate,              Gross Improper Payment
                  Program                   Actual 2012              Rate of Less Than 10%
           Medicare Fee-for-
           Service                                 8.5                            Yes
           Medicare Advantage                     11.4                            No
           Medicare Prescription
           Drugs                                  3.1                             Yes
           Medicaid                               7.1                             Yes
           CHIP                                   8.2                             Yes
           TANF                                   N/A                             N/A
           Head Start                             0.6                             Yes
           Foster Care                            6.2                             Yes
           CCDF                                   9.4                             Yes
            Source: the Department, FY 2012 AFR.
            N/A = Not applicable because this program did not submit a 2012 improper payment estimate and an
            assessment of whether payments errors were less than 10 percent could not be made.

Information on Recapturing Improper Payments

In accordance with the IPIA, the Department reported information on its actions and results to
recapture improper payments. The Department reported both recoveries by the recovery audit
contractor and for overpayments recaptured outside the work performed by those contractors.
For example, the Department reported that the Medicare Fee-for-Service recovery auditors had a
recovery rate of 87 percent ($2.3 billion), which exceeded their target of 83.5 percent.

Noncompliance for Fiscal Years 2011 and 2012

The IPERA and OMB Circular A-123 require Inspectors General to report on agency compliance
with the IPIA. If an agency is determined by an Inspector General not to be in compliance with
the IPIA for 2 consecutive FYs for the same program or activity, OMB will determine whether
additional funding would help the agency come into compliance and how much additional
funding the agency should obligate to compliance efforts. We identified noncompliance in
TANF, CHIP, and Medicare Advantage for both FY 2011 and FY 2012.

ACCURACY AND COMPLETENESS OF INFORMATION IN THE AGENCY
FINANCIAL REPORT

In addition to assessing compliance with the IPIA, we reviewed the accuracy and completeness
of the Department’s reporting in accordance with OMB guidance and did not identify any
issues with accuracy and completeness of the information for three programs. However, for
four programs (i.e., CCDF, Medicare Fee-for-Service, Medicare Advantage, and Medicare
Prescription Drugs), we identified inaccurate information. Because TANF and CHIP did not

Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                               8
report all of the information required by the IPIA on the nature and extent of improper payments,
we could not assess the accuracy or completeness of TANF and CHIP data.

The spreadsheet used by the Department had incorrect data that resulted in the overstatement of
the reported improper payment rate for CCDF. The incorrect data were the result of two States
uploading incorrect data and data for two other fields not being loaded in a timely fashion. The
Department did not detect these errors. The Department reported a current-year improper
payment rate of 9.43 percent. After we identified the errors, the Department recalculated the rate
and came to a rate of 9.16 percent. This affected several of the amounts that the Department had
reported (Table 3).

                              Table 3: Discrepancies in Amounts Reported
                                 for the Child Care Development Fund

                                                Reported                       Revised
                  Current Year                ($ in millions)              ($ in millions)
             Improper Payment
             Percentage                            9.43%                       9.16%
             Improper Payment
             Dollars (gross)                       $488                        $497
             Overpayment Dollars                   $449                        $443
             Underpayment Dollars                   $39                         $55
             Net Improper Payment
             Percentage                           7.90%                        7.15%
             Net Improper Payment
             Dollars                               $410                        $388
              Sources: the Department, FY 2012 AFR for reported amounts; data provided by
              the Department on 1/18/2013 for revised amounts.

For both Medicare Fee-for-Service and Medicare Advantage, we identified minor inaccuracies in
the overpayment recapture amounts reported in the AFR. 10 The Medicare Fee-for-Service
overpayment recapture amounts were overstated by $400,000 and the Medicare Advantage
overpayment recapture amounts were overstated by $100,000. Both overestimates were caused
by mathematical errors.

We could not determine whether the reported improper payment rates for Medicare Prescription
Drugs and Medicare Advantage were accurate because a component of the rates was calculated
using a calendar year (CY) 2009 data set instead of a CY 2010 data set. The Department used
the CY 2009 data set because two components of CMS miscommunicated the period of time the
data should be retained. CMS has developed a process to monitor and ensure that data are
retained in accordance with program requirements. CMS was able to recreate a limited amount
of this CY 2010 data set. We were unable to quantify the effect of using the CY 2009 data set as
a substitute for the CY 2010 data set on improper payment rate estimates reported for the current
year for both programs.


10
     Table 7, “Overpayments Recaptured Outside of Payment Recapture Audits.”

Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                 9
PERFORMANCE IN REDUCING IMPROPER PAYMENTS

Beyond our assessment of the Department’s compliance with the IPIA, we assessed the
Department’s performance in reducing and recapturing improper payments and identified that the
Department has achieved some success in reducing improper payment rates. The Department
reported reductions in rates for five of the eight programs (i.e., Medicare Fee-for Service,
Medicare Prescription Drugs, Medicaid, Head Start, and CCDF) for which it reported improper
payment rates. However, the Department reported increases in the improper payment rates of
Medicare Advantage of from 11.0 percent in FY 2011 to 11.4 percent in FY 2012 and in Foster
Care of from 5.3 percent in FY 2011 to 6.2 percent in FY 2012. The Department has developed
corrective action plans for seven programs and, as previously noted, is working with the States to
develop corrective action plans for CHIP.

                                        RECOMMENDATIONS

The Department made progress on some of our recommendations; however, it still has not
reported an improper payment estimate for TANF, and we reemphasize our prior
recommendation that it do so. Other recommendations are still outstanding, such as reducing
improper payment rates below 10 percent, and we will continue to follow up until they are
resolved. To address issues identified in this report, we recommend that the Department improve
its compliance with the IPIA. Specifically, the Department should:

     •   assess the need for additional actions to meet improper payment rate reduction targets,

     •   develop and report improper payment rate reduction targets and corrective action plans
         for CHIP,

     •   ensure that amounts used in the computations for reporting overpayments recaptured are
         accurate and complete, and

     •   ensure data are retained in accordance with program requirements.

                                    DEPARTMENT COMMENTS

In its comments on the draft report, the Department neither agreed nor disagreed with our four
recommendations. Instead, the Department described actions it has implemented or plans to
implement related to the recommendations.

Regarding our recommendation that the Department assess the need for additional actions to
meet error-rate reduction targets, the Department stated that believes its actions will allow it to
achieve error rates at or below targets in the future.

In response to our recommendation that the Department develop and report error rate targets and
corrective action plans for CHIP, the Department noted that it was prohibited by statute 11 from
11
  The Children’s Health Insurance Reauthorization Act of 2009, P.L. 111-3 § 601(b), and Medicare and Medicaid
Extenders Act of 2010, P.L. 111-309 § 205(c).

Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                                10
calculating or publishing an error rate for CHIP for FYs 2008 through 2010. 12 The Department
also stated that it was currently working to develop a comprehensive corrective action plan to be
discussed in the FY 2013 AFR and will have a CHIP baseline error measurement in FY 2014 and
will then establish reduction targets for CHIP.

Regarding our recommendation that the Department ensure that amounts used in the
computations for reporting overpayment amounts recaptured are accurate and complete, the
Department stated that it is important to report improper payment information in an accurate and
complete manner. The Department is refining its internal controls to ensure that these
mathematical errors do not occur in the future.

In response to our recommendation that the Department ensure that data are retained in
accordance with program requirements, the Department stated that it has developed a process to
ensure that data needed for the improper payment measures for Medicare Advantage and the
Medicare Prescription Drugs program are retained.

The Department also provided technical comments, which we addressed as appropriate. The
Department’s comments, excluding technical comments, are included as Appendix B.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

With regard to our recommendation that the Department assess the need for additional actions to
meet improper payment rate reduction targets, we acknowledge the corrective actions presented
by the Department in the AFR cover a broad range of issues to address causes of improper
payments. Nonetheless, some programs still have not met targets for reducing improper
payments. For example, Medicare Advantage has a target rate above the statutory requirement
of less than 10 percent until 2015. Our recommendation is not that the Department change all
corrective action plans but that it assess the need for additional actions to meet the improper
payment reduction target.

With regard to our recommendation that the Department develop and report improper payment
reduction targets and corrective action plans for CHIP, we acknowledge the statutory
prohibitions against reporting improper payment estimates for FYs 2008 through 2010. We are
not aware of any exception to the IPIA requirement to publish a programmatic corrective action
plan and annual reduction target for CHIP. We appreciate that the Department has stated in its
response that a comprehensive CHIP corrective action plan will be discussed in the FY 2013
AFR. On the basis of the Department’s prior experience with CHIP and information gleaned
from the estimation of improper payments, the Department could have established reasonable
reduction targets for future years. Taking these actions in accordance with the IPIA will focus
the Department’s efforts to minimize improper payments.

We acknowledge that the Department recognizes the importance of ensuring that amounts used
in the computations for reporting overpayment amounts recaptured are accurate and complete


12
 Error rates for FYs 2008 through 2010 would otherwise have been published in the FY 2009 through FY 2011
AFRs.

Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                            11
and that it is refining its internal controls. We also acknowledge that the Department has
developed a process to ensure that data needed for improper payment measures for Medicare
Advantage and Medicare Prescription Drugs will be retained as required.




Department Reporting Under the Improper Payments Information Act (A-17-13-52000)             12
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

  U.S. Department of Health and Human Services Did Not Fully Comply
  With Federal Requirements for Reporting Improper Payments                        A-17-12-52000
  Review of CERT Errors Overturned Through the Appeals Process for
  Fiscal Years 2009 and 2010                                                       A-01-11-00504
  Oversight and Evaluation of the Fiscal Year 2007 Payment Error Rate
  Measurement Program                                                              A-06-07-00078
  Oversight and Evaluation of the Fiscal Year 2006 Medicaid Fee-for-
  Service Payment Error Rate Measurement Program                                   A-06-07-00114




Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                   13
 APPENDIX B: DEPARTMENT OF HEALTH AND HUMAN SERVICES COMMENTS 





                      DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Office of the Secretary



                                                                                                 Washington, D.C. 20201



            Daniel R. Levinson
            Inspector General                                    MAR 0 1 2013
            Department of Health and Human Services
            Cohen Building, Room 5250
            330 Independence Ave, S.W.
            Washington, D.C. 20201

            Dear Mr. Levinson:

            Thank you for sharing the draft report on the Department of Health and Human Services' (HHS)
            compliance with requirements for reporting improper payments under the Improper Payments
            Elimination and Recovery Act of 2010 (IPERA). As requested, this response includes information on the
            status of any actions or planned actions that we are taking in response to the draft recommendations.
            In addition, our technical comments are attached for your consideration.

            Responses to the HHS OIG Recommendations on IPERA Compliance (A-17-13-52000)

            Recommendation #1: The Department should " assess the need for additiona l actions to meet error rate
            reduction targets."

            HHS Response: HHS is committed to meeting its error rate reduction targets. As the draft report notes,
            in Fiscal Year {FY) 2012, three programs (Medicare Fee-Fo r-Service (FFS), Medicare Advantage (Part C),
            and Foster Care) did not meet the error rate reduction targets that were published in the FY 2011 HHS
            Agency Financial Report (AFR). For the Medicare FFS program, although the error rate declined from 8.6
            pe rcent in FY 2011 to 8.5 percent in FY 2012, the program did not meet its error rate reduction target of
            5.4 percent. For the Medicare Part C and Foster Care programs, the error rate increased rather than
            decreased; therefore, the programs did not meet their reduction targets.

            HHS sets aggressive reduction targets in an effort to drive improvement in payment accuracy levels. The
            downside of setting aggressive targets is that they may not always be met. HHS has t aken, and
            continues t o take, a number of actions, outlined in the FY 2012 AFR (please see htt p://www.hhs.gov/afr/
            for HHS' AFR, released November 15, 2012) to reduce erro r rates in all of its programs, including
            Medicare FFS, Medicare Part c, and Foster Care. We believe these actions will allow HHS to achieve
            error rates at or below the established targets in the future.

            Recommendation #2: The Department should " develop and report error rat e reduction targets and
            corrective action plans for the CHIP program."

            HHS Response: HHS is pleased that we were able t o report an error rate for the Children's Healt h
            Insurance Program (CHIP) in FY 2012, for the f irst time since FY 2008. As noted in the FY 2012 AFR, HHS
            was specifically prohibited by the Childr en's Health Insurance Program Reauthorization Act of 2009
            (CHIPRA} from calculating or publishing an error rate for CHIP until 6 months after a new Payment Error
            Rate Measurement (PERM) final rule had taken effect. The PERM final rule was published on August 11,
            2010. In addition, Section 205(c) of the Medicaid Extenders Act of 2010 exempted HHS from reporting a
            CHIP improper payment rate in FY 2010 and FY 2011. Therefore, in compliance with CHIPRA and the




Department Reporting Under the Improper Payments Information Act (A -17-13-52000)                                          14
           DEPARTMENT OF HEALTH AND HUMAN SERVICES                                                           Page2



           Medicaid Extenders Act, HHS did not report a national error rate for CHIP in the FY 2009 through FY 2011
           AFRs. HHS reported a CHIP improper payment estimate in the FY 2012 AFR as scheduled.

           Under the PERM final rule, States submit their CHIP corrective action plans after the publication of the
           HHS AFR. HHS develops the CHIP corrective action plan based on the State corrective action plans. HHS
           is current ly working with the 17 States that reported in FY 2012 to develop a comprehensive CHIP
           corrective action plan that will be discussed in the FY 2013 AFR.

           With respect to CHIP reduction targets, as has been our previous OMB-approved practice, we do not
           establish reduction targets for a program until we have established the baseline. For CHIP, the baseline
           measurement is based on the measurement of 50 States and the District of Columbia over three years
           (I.e., 17 States are measured each year). The CHIP improper payment baseline will be established when
           all three cycles of Stat es have completed their measurement over a three-year period (FYs 2012 through
           2014). HHS will have a CHIP baseline error measurement in FY 2014, and will t hen establish reduction
           targets for the program.

           Recommendation #3: The Department should "ensure that amounts used in the computations for
           reporting overpayments recaptured are accurate and complete"

           HHS Response: HHS believes it is important to report improper payment information in an accurate
           and complete manner . As noted in the draft report, the inaccuracy in the reported amounts of
           recaptured overpayments was due to mathematical errors. We are refining our internal cont rols to
           ensure that t hese mathematical errors do not occur in future reporting.

           Recommendation #4: The Department should "ensure that data are retained in accordance with
           program requirements."

           HHS Response: As disclosed in the FY 2012 AFR and discussed in the draft report, for a component of
           the Medicare Part C and Part D programs, HHS had data issues that required the Department to utilize
           data from Calendar Year 2009, rather than Calendar Year 2010. However, as recognized by the OIG in
           the draft report, HHS has developed a p rocess to ensure that data needed for improper payment
           measures for Medicare Part C and Part 0 will be retained for the requisite time period.

           Thank you again for your ongoing efforts to assist the Department. We look forward to continuing to
           partner with your office to prevent and reduce improper payments.




                                                         ~ Ellen G. Murray
                                                           Assistant Secretary for Financial Resources
                                                                                                         1
            Attachment: Technical Comments on the Draft Report on IPERA Compliance (A-17-13-52000)




1
 0ffice oflnspector General Note- Tedmical conunents in the auditee's response to the draft
have been omitted fi·om the final report and all appropriate changes have been made.


Department Reporting Under the Improper Payments Information Act (A-17-13-52000)                                      15
